TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                The Office of Professional Responsibility Can
                   Do More to Effectively Identify and Act
                   Against Incompetent and Disreputable
                              Tax Practitioners



                                            March 2006

                              Reference Number: 2006-10-066




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 31, 2006


 MEMORANDUM FOR DIRECTOR, OFFICE OF PROFESSIONAL RESPONSIBILITY

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Office of Professional Responsibility Can Do
                             More to Effectively Identify and Act Against Incompetent and
                             Disreputable Tax Practitioners (Audit # 200410031)

 This report presents the results of our review of tax practitioner disciplinary actions as
 administered by the Internal Revenue Service (IRS) Office of Professional Responsibility (OPR).
 The overall objective of this review was to determine whether the IRS has an effective process to
 identify and discipline tax practitioners when appropriate and whether its records are adequate to
 protect against improper representation.

 Synopsis
 Recently, the IRS has placed a greater emphasis on the oversight of tax practitioners. To help
 ensure adequate resources are devoted to provide this oversight, the IRS substantially increased
 the budget and staffing of the OPR. In Fiscal Year (FY) 2002, the OPR had a budget of
 $1.8 million and a staff of 15. By FY 2005, it had a budget of $5 million and a staff of 56.
 During this time, the number of disciplinary actions by the OPR also increased, primarily
 because of expedited suspensions, which are generally used by the OPR in response to action
 already taken by Federal or State Government agencies to convict or disbar a tax practitioner or
 to revoke a practitioner’s license.
 Notwithstanding the increases in enforcement activity, there are still a significant number of tax
 practitioners whose conduct appears to warrant disciplinary action by the IRS but who have not
 been identified by the OPR. We believe the OPR needs to improve its ability to identify such
 practitioners so it can take appropriate disciplinary actions. Some tax practitioners who have
 been convicted of tax-related crimes or whose licenses have been suspended or revoked by State
 authorities have not been suspended from practice before the IRS.
                       The Office of Professional Responsibility Can Do More to
                        Effectively Identify and Act Against Incompetent and
                                    Disreputable Tax Practitioners


In addition, the IRS does not have an adequate method to notify the OPR of tax practitioners who
are not compliant with their own tax obligations. In a statistical sample of 750 of the
approximately 407,000 licensed tax practitioners, there were 34 (4.5 percent) who were not
compliant with their individual tax obligations. These 34 practitioners had a total of 81 tax
periods with balances due of $826,709 and 34 tax periods for which required tax returns had not
been filed.1 Based on our sample, we estimate there are approximately 22,500 licensed tax
practitioners who are not compliant with their tax obligations but who have not been identified
for referral to the OPR.
We previously reviewed the OPR in 2001 (the OPR was then known as the Office of the Director
of Practice) and reported problems with the lack of information needed to assess or manage the
resources used for the disciplinary proceedings program.2 We reported that the OPR case
management system (the Director of Practice Case Tracking System) was not used effectively to
monitor program activities and resources and that case information was not always updated or
accurate. During this review, we found the OPR had not implemented some of our
recommendations. Consequently, the problems we reported in 2001 still exist. The OPR still
does not have the information needed to effectively monitor program activities and resources,
and the case management system still contains unreliable information.
OPR management advised us they do not account for the time the OPR staff spends on specific
cases or types of cases. While other IRS operations capture this type of information to evaluate
and manage the use of staff time, OPR management believes capturing information related to the
use of OPR staff time is not productive. However, we believe that, given the scope and
importance of the OPR’s responsibilities, the inattention to the use of its resources is ill-advised.
Furthermore, the lack of information needed for program monitoring reduces accountability.
Problems obtaining information related to the OPR’s use of resources limited the scope of our
review.
The OPR does not have written procedures for controlling and reviewing case referrals.
Although the IRS operating divisions had procedures to send referrals to the OPR, they generally
do not maintain a record or list of referrals sent to the OPR. The process of evaluating whether
referrals were appropriately received, recorded, and processed was complicated by the fact that
the OPR destroyed some referrals in October 2004. OPR officials did not notify the Office of
Audit about the destruction of its records. The Office of Audit was made aware of this matter
through the Treasury Inspector General for Tax Administration (TIGTA) Office of
Investigations, which was acting on an allegation from an OPR employee. The employee alleged
that the OPR had acted improperly when it destroyed the records. OPR executives expressed the
belief that reporting the allegation in this manner constituted sufficient notice to the Office of
Audit. When asked why they did not communicate directly with the Office of Audit that the


1
 A tax period is a measure of time for which a tax return is required to be filed.
2
 Improved Case Monitoring and Taxpayer Awareness Activities Can Enhance the Effectiveness of the Tax
Practitioner Disciplinary Proceedings Program (Reference Number 2001-10-027, dated January 2001).
                                                                                                       2
                        The Office of Professional Responsibility Can Do More to
                         Effectively Identify and Act Against Incompetent and
                                     Disreputable Tax Practitioners


OPR had destroyed records pertinent to this audit, OPR executives expressed the view “it was
not on our radar screen.”
OPR officials advised us the OPR was at that time moving its offices and storage to a new
location. Rather than move these records, an OPR official verbally approved their destruction.
Although the IRS has written procedures for retention and destruction of records, these
procedures were not followed by the OPR. There was no log of what records were destroyed, no
log of when and how the records were destroyed, and no official written authorization. OPR
officials advised us that only referrals received before 2004 were destroyed, and these were only
referrals that they would not develop into cases because the individuals either were not within
the jurisdiction of the OPR or the information in the referrals was insufficient to warrant action
by the OPR. OPR officials acknowledged that they were required to retain these files for
10 years. However, they believe this is too long a retention period for these types of records;
therefore, they intend to seek approval to reduce the retention requirement for these types of
records from 10 years to 1 year. The destruction of these records also limited the scope of our
review.
Written procedures to ensure consistent processing and adherence to requirements need to be
developed and followed. The inconsistent manner in which the OPR handles referrals and the
lack of written procedures increase the risk that the OPR is not operating effectively and is not
identifying tax practitioners who are not in compliance with Department of the Treasury
regulations.

Recommendations
We recommended the Director, OPR, work with other law enforcement agencies, including the
Department of Justice, to improve the referral process and develop a process to obtain relevant
information on State disciplinary actions by coordinating with State licensing authorities such as
State bar associations and boards of accountancy. The Director, OPR, should coordinate with
the Director, Customer Account Services Consolidation, in the Wage and Investment Division
and the Associate Chief Information Officer for the Modernization and Information Technology
Services organization in developing a method of uniquely identifying representatives on the
Centralized Authorization File3 and use the information to notify the OPR when representatives
are not compliant with their individual tax obligations. The Director, OPR, should implement
the recommendations from our prior report. This should include employing the OPR case
management system to provide data on the use of program resources and performing an annual
workload and staffing analysis to help prioritize and allocate resources. The Director, OPR,
should also evaluate the OPR record retention requirement and obtain approval for any needed
changes to those requirements; develop procedures to better define what cases will be recorded


3
 Taxpayers can authorize individuals to represent them on tax returns or other tax-related issues by submitting a
Power of Attorney and Declaration of Representative (Form 2848) to the IRS that is recorded on the CAF.
                                                                                                                    3
                    The Office of Professional Responsibility Can Do More to
                     Effectively Identify and Act Against Incompetent and
                                 Disreputable Tax Practitioners


on the case management system and how the source, nature, and outcome of referrals will be
monitored to help target outreach efforts; and establish controls and analytical procedures that
will increase the reliability of the OPR case management system by periodically verifying the
inventory.

Response
OPR management agreed with five of our seven recommendations, agreed in principle only with
one recommendation, and disagreed with one recommendation. OPR management agreed in
principle that it would be desirable to collect comprehensive conviction information from law
enforcement agencies for all crimes involving dishonesty and breach of trust for practitioners.
However, they believe they are doing all that can reasonably be done at this time and must rely
on law enforcement agencies to identify these cases. The OPR will contact each State licensing
authority to establish a process for communicating relevant disciplinary information and will
coordinate with other IRS and Department of the Treasury operations to develop a method to
uniquely identify representatives on the IRS Centralized Authorization File to determine and
notify the OPR of licensed tax practitioners that are not compliant with their individual tax
obligations. Additionally, the OPR will evaluate its record retention requirements and obtain
approval for any needed changes to those requirements. Furthermore, the OPR has implemented
a new case management information system that includes documented procedures for recording
correspondence and quality control procedures for data reliability. OPR management stated they
will not implement the recommendations from the prior TIGTA report because they do not agree
annual workload and staffing analysis is productive given the size and maturity of their
organization. Their new case management information system does not include this capability,
and they believe changes would not yield benefits commensurate with the costs for both software
modifications and ongoing collection and analysis of data. Resource allocation issues will be
addressed through the normal budget development process and through regular business
performance reviews. Management’s complete response to the draft report is included as
Appendix V.

Office of Audit Comment
We do not agree that OPR management is doing all it reasonably can to collect comprehensive
conviction information. Working with law enforcement agencies, including the Department of
Justice, to improve the referral process for practitioner convictions would not only improve the
OPR’s ability to identify disreputable tax practitioners, it would also help improve the efficiency
of the process and reduce the number of certain types of unproductive referrals.
We are also concerned with management’s decision not to implement recommendations from the
prior TIGTA report to employ the OPR case management system to provide data on the use of
program resources and to perform an annual workload and staffing analysis to help prioritize and
allocate resources. These recommendations were previously agreed to but were not implemented

                                                                                                   4
                    The Office of Professional Responsibility Can Do More to
                     Effectively Identify and Act Against Incompetent and
                                 Disreputable Tax Practitioners


by the Director of Practice or the OPR. OPR management did not include in their response any
information to provide support for their statement that the size and maturity of the organization
make it unproductive to perform annual workload and staffing analysis. We believe the
problems we identified during this audit are a strong indication that such analysis is needed to
effectively manage the program. For example, OPR management should be in a position to
explain what resources are devoted to a major emphasis area such as tax shelter cases.
We are elevating our disagreement related to these two recommendations to the Department of
the Treasury for resolution. The IRS Commissioner is responsible for submitting a written reply
to the Assistant Secretary for Management and Chief Financial Officer of the Department of the
Treasury within 30 calendar days of the final report issuance date. This reply should explain the
IRS’ reasons for the lack of agreement with Recommendations 1 and 4 in this audit report. The
IRS Commissioner will provide a copy of the reply to the TIGTA. Resolution shall be made by
the Department of the Treasury within a maximum of 6 months after issuance of a final TIGTA
audit report, in accordance with Office of Management and Budget Circular A-50.
We have also included Office of Audit comments to specific issues in management’s general
discussion of the report as Appendix VI. Copies of this report are being sent to the IRS
managers affected by the report recommendations. Please contact me at (202) 622-6510 if you
have questions or Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters
Operations and Exempt Organizations Programs), at 202-622-8500.




                                                                                                    5
                            The Office of Professional Responsibility Can Do More to
                             Effectively Identify and Act Against Incompetent and
                                         Disreputable Tax Practitioners




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Many Tax Practitioners Whose Conduct Appears to Warrant
          Disciplinary Action Are Still Able to Practice Before the
          Internal Revenue Service ..............................................................................Page 4
                    Recommendation 1:........................................................Page 11

                    Recommendations 2 and 3: ..............................................Page 12

          The Office of Professional Responsibility Needs to Improve Its
          Management of Staff and Cases ...................................................................Page 12
                    Recommendations 4 and 5: ..............................................Page 17

                    Recommendations 6 and 7: ..............................................Page 18


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 19
          Appendix II – Major Contributors to This Report ........................................Page 22
          Appendix III – Report Distribution List .......................................................Page 23
          Appendix IV – Outcome Measures...............................................................Page 24
          Appendix V – Management’s Response to the Draft Report .......................Page 26
          Appendix VI – Office of Audit Comments on Management’s Response ....Page 32
                        The Office of Professional Responsibility Can Do More to
                         Effectively Identify and Act Against Incompetent and
                                     Disreputable Tax Practitioners




                                             Background

Tax practitioners play a critical role in the Federal tax system. Many taxpayers depend on tax
practitioners to prepare returns, advise them on tax-related matters, and represent them before the
Internal Revenue Service (IRS) to resolve tax issues. The IRS Office of Professional
Responsibility (OPR) has an oversight role to ensure licensed tax practitioners (attorneys,
certified public accountants (CPA), enrolled agents, enrolled actuaries, and appraisers)1 who
practice before the IRS adhere to standards of conduct and professionalism.2 This includes the
responsibility for investigating allegations of misconduct by licensed tax practitioners who
represent taxpayers in matters before the IRS.
Treasury Department Circular No. 230, Regulations Governing the Practice of Attorneys,
Certified Public Accountants, Enrolled Agents, Enrolled Actuaries, and Appraisers before the
Internal Revenue Service, contains the standards of conduct and professionalism for licensed tax
practitioners and authorizes the Department of the Treasury to institute disciplinary proceedings
against tax practitioners whose conduct violates these regulations.3 The general categories of
misconduct subject to disciplinary action include:
    •    Misconduct while representing a taxpayer, such as giving false or misleading information
         to the Department of the Treasury.
    •    Failing to file a required Federal tax return, or evading assessment or payment of Federal
         tax.
    •    Providing either recklessly or through gross incompetence an opinion contrary to law.
    •    Other types of misconduct involving disreputable behavior, such as conviction of a
         criminal offense or revocation of a professional license by a State authority.4
In performing its oversight role, the OPR relies heavily on referrals involving tax practitioner
misconduct from several sources including IRS employees, taxpayers, tax practitioners, law
enforcement agencies, and State licensing authorities.5 Depending on information provided and
the results of the OPR investigation, the OPR can apply disciplinary actions including a private


1
  This report does not address enrolled actuaries or appraisers because the total numbers account for less than
1 percent of representatives practicing before the IRS.
2
  The OPR was established in January 2003 to replace what was formerly the Office of the Director of Practice.
3
  Title 31 Code of Federal Regulations, Subtitle A, Part 10 (June 20, 2005, revision).
4
  This includes any United States territory, possession, commonwealth, and the District of Columbia.
5
  A referral can be sent to the OPR using a Report of Suspected Practitioner Misconduct (Form 8484) or a written
statement. In addition, the IRS public web site (IRS.gov) has a link for tax professionals and taxpayers to submit
referrals.
                                                                                                             Page 1
                        The Office of Professional Responsibility Can Do More to
                         Effectively Identify and Act Against Incompetent and
                                     Disreputable Tax Practitioners



reprimand, censure (public reprimand), suspension, or disbarment. A tax practitioner may
consent to the proposed disciplinary action, or the case can be sent for an administrative hearing.
When the OPR takes a disciplinary action against a tax practitioner, it maintains the action on its
case management system (the Director of Practice Case Tracking System). The OPR also
records the information on its Intranet web site and informs the public through Internal Revenue
Bulletins. If the disciplinary action involves an enrolled agent, the OPR will also update its
enrolled agent database.6 Furthermore, if the disciplinary action suspends or revokes the
practitioner’s eligibility to practice before the IRS, the OPR will notify the appropriate IRS unit
to update the Centralized Authorization File (CAF).7 The CAF is the computer system used by
IRS employees to determine the scope of authority granted by the taxpayers, direct copies of tax
notices and correspondence to taxpayer representatives, and obtain contact information to
communicate with taxpayer representatives. There are approximately 1.4 million representatives
on the CAF with an estimated 407,000 of these listed as licensed tax practitioners.
Recently, the IRS has placed a greater emphasis on the oversight of tax practitioners. In its
Fiscal Year (FY) 2005-2009 Strategic Plan, the IRS included a number of strategies to ensure
attorneys, accountants, and other tax practitioners adhere to professional standards and follow the
law. These strategies include outreach and education to tax practitioners and IRS operating
divisions related to the standards of conduct, the IRS role in enforcing the standards, and the use
of disciplinary actions when appropriate. One area in which the IRS has focused its enforcement
is on tax practitioners who promote abusive tax avoidance transactions such as abusive tax
shelters. This emphasis is in response to a growing problem with the promotion and use of
abusive tax shelters. A number of IRS divisions and functions have taken a coordinated
approach in addressing this problem. Furthermore, Treasury Department Circular No. 230 was
recently revised to impose stricter standards on individuals and firms that provide advice related
to transactions intended to shelter income from taxation. The new rules strengthen the standards
to help ensure practitioners analyze and address carefully whether a particular transaction has a
legitimate business reason and is not solely for tax benefits. In addition, monetary penalties can
be imposed on promoters of abusive tax shelters in addition to any suspension, disbarment, or
censure of a practitioner.8
This review of the OPR’s tax practitioner disciplinary actions was performed at the IRS National
Headquarters in Washington, D.C., in the OPR during the period October 2004 through
December 2005. There were certain impairments to the scope of our audit work. The OPR
destroyed some case referral records received before October 2004. OPR management did not

6
  The Enrolled Practitioner Program System is used to record and monitor individuals granted enrolled agent status
by the IRS.
7
  Taxpayers can authorize individuals to represent them on tax returns or other tax-related issues by submitting a
Power of Attorney and Declaration of Representative (Form 2848) to the IRS that is recorded on the CAF.
8
  American Jobs Creation Act of 2004, Pub. L. No. 108–357, 118 Stat. 1418 (2004) and Treasury Department
Circular No. 230 (new regulations in effect June 20, 2005).
                                                                                                           Page 2
                    The Office of Professional Responsibility Can Do More to
                     Effectively Identify and Act Against Incompetent and
                                 Disreputable Tax Practitioners



disclose the destruction of these records to us during the audit. In addition, certain information
needed to evaluate the OPR’s processes and use of resources was not available. These matters
are discussed in further detail in the Results of Review section. With the exception of these
impairments, this audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                            Page 3
                         The Office of Professional Responsibility Can Do More to
                          Effectively Identify and Act Against Incompetent and
                                      Disreputable Tax Practitioners



                                       Results of Review

Many Tax Practitioners Whose Conduct Appears to Warrant
Disciplinary Action Are Still Able to Practice Before the Internal
Revenue Service
To enforce the rules and regulations governing practice before the IRS, the OPR must be able to
identify practitioners who are not in compliance with those rules and regulations so appropriate
disciplinary action can be taken. To help ensure the OPR has the resources needed for this
effort, the IRS substantially increased the budget and staffing of the OPR. In FY 2002, the OPR
had a budget of $1.8 million and a staff of 15. By FY 2005, it had a budget of $5 million and a
staff of 56. During this time, the number of disciplinary actions taken by the OPR also
increased, primarily because of expedited suspensions, which are generally used by the OPR in
response to action already taken by Federal or State Government agencies to convict or disbar a
practitioner or to revoke a practitioner’s license. Table 1 shows enforcement activity by type of
disciplinary action for FYs 2002-2005.
               Table 1: Enforcement Activity by Type of Disciplinary Action9
                                                                       Number of Cases
      Type of Disciplinary Action
                                                 FY 2002           FY 2003          FY 2004           FY 2005
     Disbarment                                11               6                         2                0
     Disbarment by Consent                      0               0                         1                1
     Expedited Suspension                       7              47                        48              223
     Suspension After Hearing                   2               2                         6               11
     Suspension by Consent                     26              48                        60               37
     Censure                                    0               9                        16               11
     Reprimand                                 24              21                        31               37
     Resignation of Enrolled Agents             3               2                         4                0
                  TOTALS                       73            135                        168              320
    Source: The OPR’s Business Performance Review dated October 25, 2005.

Notwithstanding the increases in enforcement activity, there are still a significant number of tax
practitioners whose conduct appears to warrant disciplinary action by the IRS but who have not
been identified by the OPR. Based on our review, we believe the OPR needs to improve its
ability to identify such practitioners so it can take appropriate disciplinary actions.

9
 The OPR disciplinary actions are limited to the regulation of the practitioner’s eligibility to represent taxpayers
before the IRS.
                                                                                                                Page 4
                          The Office of Professional Responsibility Can Do More to
                           Effectively Identify and Act Against Incompetent and
                                       Disreputable Tax Practitioners



Some practitioners who have been convicted of tax-related crimes have not been
restricted from practicing before the IRS
Treasury Department Circular No. 230 states that the OPR may expedite suspension of any
practitioner who, within 5 years, has been convicted of any tax-related crime, any crime
involving dishonesty or breach of trust, or any felony for which the conduct involved renders the
practitioner unfit to practice before the IRS. A practitioner must be notified by the OPR and
provided 30 days to request a conference with the OPR to address the merits of the complaint.
The practitioner may be suspended either immediately following the expiration of the
30-day period or, if a conference is requested, immediately following the conference, depending
on the resolution of the conference.10
Several sources assist the OPR in identifying practitioner convictions. The primary sources of
tax-related convictions are the functions that investigate or prosecute the cases, such as the IRS
Criminal Investigation Division (CID), the Treasury Inspector General for Tax Administration
(TIGTA), and the Department of Justice Tax Division. However, there have been only a limited
number of referrals from these sources. During FYs 2002-2004, the OPR recorded on its case
management system only 52 referrals identifying the conviction of tax practitioners under the
OPR’s jurisdiction from these primary sources.
To evaluate the scope of the number of tax practitioner convictions that could be identified from
these sources, we reviewed approximately 1,200 Department of Justice Tax Division, IRS CID,
and TIGTA Office of Investigations press releases and/or case summaries for tax-related crimes
during Calendar Years 2002-2004. From this review, we identified 223 representatives who
were convicted, or were served with an injunction, and were also listed on the CAF. For
24 representatives, the IRS had taken the necessary actions to record on the CAF that these
representatives may not represent taxpayers before the IRS. However, the remaining
199 (89 percent) representatives were still listed on the CAF as eligible to practice before the
IRS. Of these 199 representatives/designees, 55 are within the jurisdiction of the OPR because
they were attorneys, CPAs, or enrolled agents. The Small Business/Self-Employed (SB/SE)
Division and the Wage and Investment Division have jurisdiction for the remaining
144 representatives.




10
     Treasury Department Circular No. 230 § 10.82 (Rev. 6-2005) specifies the process for expedited suspensions.
                                                                                                            Page 5
                       The Office of Professional Responsibility Can Do More to
                        Effectively Identify and Act Against Incompetent and
                                    Disreputable Tax Practitioners



Table 2 shows the results of our review            Table 2: Convicted Individuals Still Listed
of the 55 licensed practitioners within                          on the CAF
the jurisdiction of the OPR. We also
compared these 55 individuals to the                                                             Taxpayers
                                                                                Convicted
                                                 Type of Tax Practitioner                       Represented
OPR case management system to                                                  Individuals
                                                                                                on the CAF
determine if the OPR had taken any
                                                  Attorney                           22               374
disciplinary action related to these
individuals. The OPR had not identified           CPA                                27               611
39 individuals. For the remaining                 Enrolled Agent                      6               451
16 individuals, the OPR had taken                 Totals                             55           1,436
disciplinary actions, but these actions          Source: The TIGTA’s review of CAF information and reported
had not been updated to the CAF.                 convictions for Calendar Years 2002-2004.

Based on a recommendation in a prior TIGTA audit report,11 the IRS is improving its processes
to ensure actions taken by the OPR are updated to the CAF. However, further actions are needed
to ensure the OPR’s processes identify practitioners convicted of the types of crimes that warrant
IRS action, to prevent these practitioners from representing taxpayers before the IRS. It is
important that this information is received and acted on timely. The tax practitioners we
identified had been convicted of serious offenses such as income tax evasion, conspiracy to
obstruct or defraud the IRS, or preparation of fraudulent tax returns. Delays in identifying these
tax practitioners could have serious adverse consequences to both taxpayers and the IRS.
Furthermore, the information we reviewed constitutes only a portion of the total number of
individuals with criminal convictions who may be representing taxpayers. Our scope included
tax crimes reported by 3 law enforcement agencies during a 3-year period. We did not review
State convictions or other types of Federal Government convictions, such as those involving
dishonesty, breach of trust, or a felony, that could warrant sanction by the OPR.
During our review, the OPR initiated action to obtain from the IRS CID a complete list of
licensed tax practitioners who had been investigated and sentenced for tax-related crimes.12 The
OPR informed us it is reviewing the last 3 years’ worth of prosecution data and is working with
the CID to gather documentation necessary to support expedited proceedings against these
practitioners. This should be a significant benefit to identify tax-related convictions. In addition,
to increase awareness of the types of cases that should be referred, OPR officials have given
presentations at continuing professional education sessions and performed other outreach
activities with IRS and TIGTA offices and officials.



11
   Information on the Centralized Authorization File Is Often Not Accurate or Complete (Reference
Number 2004-10-148, dated August 2004).
12
   The complete CID list was taken from the IRS Criminal Investigation Management Information System and
included prosecution data for accountants and attorneys that were sentenced between 1978 and 2005.
                                                                                                      Page 6
                        The Office of Professional Responsibility Can Do More to
                         Effectively Identify and Act Against Incompetent and
                                     Disreputable Tax Practitioners



Although the OPR has solicited the help of Federal Government authorities such as the
Department of Justice Tax Division and the United States District Courts to provide information
related to criminal convictions, there are impediments to obtaining this information. The Federal
Judiciary System includes 94 separate United States District Courts and 12 Courts of Appeals.
Additionally, the Department of Justice press releases do not always identify whether an
individual convicted of a tax crime is a licensed tax practitioner. Matching names and locations
to determine whether these convictions relate to a licensed tax practitioner is not always feasible
because matching can be accomplished only through a manual research process. While
information related to convictions is available on some law enforcement databases, there are
restrictions on the use of these databases. To obtain such information, further coordination
would be needed with other law enforcement sources, including the Department of Justice, to
obtain conviction information in a format that allows the OPR to identify whether the
information relates to tax practitioners within its jurisdiction.

Attorneys and CPAs with revoked or suspended licenses are still listed on the
CAF as eligible to practice before the IRS
State authorities such as State bar associations or boards of accountancy may suspend or revoke
the license of an attorney or CPA who is not in compliance with State laws or regulations. In
these instances, the Director, OPR, may also suspend the practitioner from practice before the
IRS in accordance with Treasury Department Circular No. 230.
To evaluate whether State disciplinary actions are acted on by the OPR, we judgmentally
selected five States to review the disciplinary actions by the bar associations and boards of
accountancy.13 Using the States’ web site listings, we identified approximately 2,100 State
actions that occurred during Calendar Years 2002-2004. These State actions included
revocations, disbarments, resignations, and surrendered licenses.14 Of these approximately
2,100 attorneys and CPAs, 516 were still listed on the CAF as eligible to practice before the IRS.
Table 3 shows the practitioners by State and the number of taxpayers represented on the CAF.




13
  We selected five of the most populated States: California, Florida, New York, Pennsylvania, and Texas.
14
  Suspensions were not included in our review because the OPR will take disciplinary actions only for State
suspensions longer than 6 months; some States did not provide time durations for suspensions.
                                                                                                              Page 7
                         The Office of Professional Responsibility Can Do More to
                          Effectively Identify and Act Against Incompetent and
                                      Disreputable Tax Practitioners



We compared the 516 attorneys and           Table 3: Attorneys and CPAs With Revoked
CPAs with the OPR case management               or Suspended Licenses but No Related
system to determine whether the OPR                      Action Shown on the CAF
had taken any disciplinary action. In
24 cases, disciplinary actions had been    State Bar Association                           Taxpayers
                                                                       Attorneys or
                                           or State Board of                              Represented
taken; however, the CAF had not been                                       CPAs
                                           Accountancy                                    on the CAF
updated to reflect the disciplinary
                                            California                        86              1,144
actions. As noted previously, the IRS is
                                            Florida                           59                643
working to improve its processes to
ensure actions taken by the OPR are         New York                          82                487
updated to the CAF. Because our scope       Pennsylvania                      35                 77
included only 5 States, the 492 of          Texas                            254              2,867
516 attorneys and CPAs not listed on the                       Totals        516              5,218
OPR case management system are only a Source: The OPR case management system, CAF information,
portion of tax practitioners who have      and State bar and accountancy boards for Calendar
been the subject of disciplinary actions   Years 2002-2004.
by a State authority but for whom the
OPR has taken no related action to evaluate whether these tax practitioners are eligible to
practice before the IRS.15
Although OPR employees review information received from State authorities and have increased
their efforts to research web sites for State disciplinary actions, there is no consistent or
systematic process for the State authorities to notify the IRS when practitioners’ licenses are
suspended or revoked. OPR officials stated they have solicited information about licensed tax
practitioners from some State authorities and national associations representing attorneys and
CPAs. These efforts resulted in an increased number of expedited suspensions in FY 2005.
However, the OPR has not been consistent in its efforts to communicate with the numerous State
bar associations and State boards of accountancy. In 2004, the OPR did send some letters
soliciting the help of the State bar associations, but none were sent to the State boards of
accountancy. OPR officials were able to provide copies of some of these letters but did not
retain copies of all letters or keep a list to verify which States had been contacted. In addition,
the OPR did not send any solicitation letters to any State bar associations or boards of
accountancy in 2005. During our review, we contacted two of the five judgmentally selected
State boards of accountancy to inquire as to their willingness to provide information to the OPR.
Representatives from both organizations were willing to share the State disciplinary actions by
adding the OPR to their distribution lists. However, they stated that the OPR has not made such
a request.



15
   Disciplinary actions by State authorities included disbarment, revocation, resignation, or surrender of license in
lieu of disciplinary action.
                                                                                                                Page 8
                        The Office of Professional Responsibility Can Do More to
                         Effectively Identify and Act Against Incompetent and
                                     Disreputable Tax Practitioners



The OPR should reevaluate its limited strategy of communicating with State licensing
authorities. Mass mailing of letters may not be the most effective or timely means of
coordinating the referral process. Furthermore, it is inefficient to obtain this information by
monitoring State web sites. Because of the number of different State authorities, many actions
listed on these sites are not related to suspensions or revocations, and the availability or
accessibility of the information on web sites varies by State. The OPR should develop a process
with State authorities for requesting and providing information and determine the frequency and
content of referral information for practitioners within the OPR’s jurisdiction. Feedback from
State authorities could be used to improve the process so the OPR receives timely and effective
referrals.

Some tax practitioners are not compliant with their own tax obligations
If a tax practitioner willfully fails to file a Federal tax return or attempts to evade assessment or
payment of any Federal tax, the practitioner may be censured, suspended, or disbarred from
practice before the IRS. The OPR relies on IRS employees and external sources to refer cases of
tax practitioner misconduct related to failure to file or other tax delinquencies. The IRS does not
have a systematic process to identify tax practitioners on the CAF who are not complying with
their Federal tax obligations so they can be referred to the OPR for further evaluation and
possible disciplinary action.
To evaluate the level of tax compliance of licensed tax practitioners and the frequency of related
disciplinary actions, we obtained a computer extract of the taxpayer representatives recorded on
the CAF16 and selected a stratified statistical sample of 750 of the approximately
407,000 licensed tax practitioners. Overall, we identified 34 (4.5 percent) who were not
compliant with their individual tax obligations. These 34 practitioners had a total of 81 tax
periods with balances due of $826,709 and 34 tax periods for which required tax returns had not
been filed.17 Table 4 shows the populations, sample sizes, and results for licensed tax
practitioners on the CAF who were not compliant with their individual tax obligations.




16
   This extract was a combination of two extracts. The extract of authorized or designated tax practitioners was as of
December 13, 2004; the extract of all other representatives was as of February 22, 2005.
17
   A tax period is a measure of time for which a tax return is required to be filed.
                                                                                                              Page 9
                          The Office of Professional Responsibility Can Do More to
                           Effectively Identify and Act Against Incompetent and
                                       Disreputable Tax Practitioners



           Table 4: Tax Practitioners on the CAF Who Were Not Compliant With
                                Their Own Tax Obligations18
                                                          Number and      Number of       Number of     Total
                                               Sample
      Type of Tax Practitioner   Population              Percentage Not   Unfiled Tax    Balance-Due Balance-Due
                                                Size
                                                           Compliant       Returns       Tax Periods  Amounts

     Attorney                     137,928        200        8    (4.0%)          3            29         $436,873

     CPA                          181,237        200      15     (7.5%)        18             24           255,964

     Enrolled Agent                25,610        200        4    (2.0%)          6             7            50,754

     Multiple Designations19       62,397        150        7    (4.7%)          7            21            83,118

                Totals            407,172        750      34     (4.5%)        34             81         $826,709
     Source: The TIGTA’s sample of representatives on the CAF using March 2005 tax account information.

According to information on the CAF, the 34 tax practitioners represent a total of 470 taxpayers.
The OPR had not identified these 34 tax practitioners. We provided this information to the OPR
during our review. Subsequently, the OPR developed cases, contacted these practitioners, and
when applicable, imposed sanctions ranging from reprimands to indefinite suspensions. Based
on our sample, we estimate there are approximately 22,500 licensed tax practitioners who are not
compliant with their tax obligations and who have not been identified for referral to the OPR.20
Licensed tax practitioners that are not compliant with their own tax obligations may not be well
equipped to provide tax advice and services to taxpayers. Allowing these tax practitioners to
practice before the IRS could undermine the public confidence in these professionals.
Compliance operations within the IRS had initiated tax enforcement action on 24 of the
34 individuals in our sample. However, because there is no cross-reference from the CAF to a
tax practitioner’s Taxpayer Identification Number,21 the IRS cannot systematically identify
whether a delinquent taxpayer is also a licensed tax practitioner. Consequently, these types of
cases are not referred to the OPR so it can evaluate whether the problem is serious enough to
warrant disciplinary action. A manual process to evaluate tax practitioners’ tax compliance is
not feasible because there are approximately 407,000 licensed tax practitioners on the CAF. A
manual research process would have to use names and addresses from the CAF to identify
representatives’ tax accounts before tax compliance could be checked. This would be difficult

18
   For this review, we considered a representative to be not in compliance with his or her tax obligations if the IRS
had initiated enforcement action by issuing a Taxpayer Delinquency Account for a tax period with a balance due or
a Taxpayer Delinquency Investigation for a tax period with a missing tax return or at least two tax periods missing
tax returns that have expired extensions to file.
19
   A representative with multiple designations on the CAF but at least one designation is an attorney, a CPA, or an
enrolled agent.
20
   Statistical information for our estimate is in Appendix IV.
21
   This could be the tax practitioner’s Social Security Number or Employer Identification Number.
                                                                                                             Page 10
                    The Office of Professional Responsibility Can Do More to
                     Effectively Identify and Act Against Incompetent and
                                 Disreputable Tax Practitioners



because some names are very common; there can be minor differences with how a name is
recorded on an account; and the same person can have different addresses, such as a home
address on a personal tax account and a business address on a CAF account.
The IRS considered requiring licensed tax practitioners and other types of representatives to
include their Social Security Numbers when submitting a Power of Attorney and Declaration of
Representative (Form 2848) to represent taxpayers before the IRS. The Social Security Numbers
on these authorization forms were to be added to the CAF to help confirm the identity of
representatives. However, because of the privacy concerns of tax practitioners, the IRS did not
establish this requirement.
We discussed with OPR officials the possibility of using an alternative method that does not use
Social Security Numbers on the Form 2848 but can still uniquely identify representatives on the
CAF, including the possibility of expanding the use of the Preparer Tax Identification Number,
which is used to uniquely identify tax return preparers. Some representatives who also prepare
tax returns may already have Preparer Tax Identification Numbers. Use of a unique identifier on
the CAF would help the OPR identify tax practitioners who are not compliant with their tax
obligations and help eliminate duplicate practitioner records on the CAF. OPR officials stated
they would discuss the feasibility of implementing alternative methods with the Wage and
Investment Division, which maintains the CAF database, and with the Modernization and
Information Technology Services organization, which is responsible for programming changes.
In addition, the OPR has been working with the IRS Office of Performance Evaluation and Risk
Analysis on a study involving the tax compliance of licensed tax practitioners who represent
clients before the IRS. The results of this study were similar to our results. The OPR is using
the information to develop educational messages and other outreach initiatives designed to
improve practitioner tax compliance and is reviewing the tax noncompliance of practitioners
identified during that study.

Recommendations
The Director, OPR, should:
Recommendation 1: Work with other law enforcement agencies, including the Department
of Justice, to improve the referral process by obtaining timely, relevant conviction information
for tax crimes and State or Federal convictions involving dishonesty and breach of trust in a
format that is useful to the OPR.
       Management’s Response: Management agreed with this recommendation in
       principle only, stating that it would be desirable to collect comprehensive conviction
       information from law enforcement agencies for all crimes involving dishonesty and
       breach of trust for practitioners. However, they believe they are doing all that can


                                                                                          Page 11
                       The Office of Professional Responsibility Can Do More to
                        Effectively Identify and Act Against Incompetent and
                                    Disreputable Tax Practitioners



        reasonably be done at this time and must rely on law enforcement agencies to identify
        these cases.
        Office of Audit Comment: We do not agree that OPR management is doing all it
        reasonably can to collect comprehensive conviction information. Working with law
        enforcement agencies, including the Department of Justice, to improve the referral
        process for practitioner convictions would not only improve the OPR’s ability to identify
        disreputable tax practitioners, it would also help improve the efficiency of the process
        and reduce the number of certain types of unproductive referrals.
Recommendation 2: Develop a process to obtain relevant information on State disciplinary
actions by coordinating with State licensing authorities such as State bar associations and boards
of accountancy. This would include establishing communication contacts and methods,
discussing best practices for requesting and providing information, and determining the
frequency and content of referral information for tax practitioners within the OPR’s jurisdiction.
        Management’s Response: Management agreed with the recommendation and will
        contact each State licensing authority to establish a process for communicating relevant
        disciplinary information.
Recommendation 3: Coordinate with the Wage and Investment Division and the
Modernization and Information Technology Services organization in developing a method of
uniquely identifying representatives on the CAF that does not require representatives to use
Social Security Numbers on Form 2848. If such a method can be developed, use the information
to notify the OPR when representatives are not compliant with their individual tax obligations.
        Management’s Response: Management agreed with the recommendation. The OPR
        will coordinate with other IRS and Department of the Treasury operations to develop a
        method to uniquely identify representatives on the IRS CAF to help determine and notify
        the OPR of licensed tax practitioners that are not compliant with their individual tax
        obligations.

The Office of Professional Responsibility Needs to Improve Its
Management of Staff and Cases
We previously reviewed the OPR in 2001 (the OPR was then known as the Office of the Director
of Practice) and reported problems with the lack of information needed to assess or manage the
resources used for the disciplinary proceedings program.22 We reported that the OPR case
management system was not used effectively to monitor program activities and resources and



22
  Improved Case Monitoring and Taxpayer Awareness Activities Can Enhance the Effectiveness of the Tax
Practitioner Disciplinary Proceedings Program (Reference Number 2001-10-027, dated January 2001).
                                                                                                        Page 12
                       The Office of Professional Responsibility Can Do More to
                        Effectively Identify and Act Against Incompetent and
                                    Disreputable Tax Practitioners



that case information was not always updated or accurate.23 The report contained the following
recommendations to OPR management:
     •   Upgrade the automated case management system to provide more timely and accurate
         data on case activities and the use of program resources.
     •   Conduct an annual workload and staffing analysis to identify the staffing necessary to
         take prompt action on allegations of tax practitioner violations.
However, during this review, we found the OPR had not implemented some corrective actions
needed to address these recommendations. Consequently, the problems we reported in 2001 still
exist. The OPR still does not have the information needed to effectively monitor program
activities and resources, and the case management system still contains unreliable information.
In addition, it is not possible to reconcile the information on the system with source documents
because most IRS operating divisions do not know what referrals were sent to the OPR, the OPR
does not account for all referrals received, the OPR did not maintain source documentation for
some case referrals, and the OPR does not have written procedures to ensure consistent
processing of referrals. To further complicate matters, some referrals were inappropriately
destroyed. As such, the OPR’s ability to perform analyses to identify potential areas for
emphasis or improvement is very limited.

The OPR does not have the information needed to evaluate its use of resources
OPR management advised us they do not account for the time the OPR staff spends on specific
cases or types of cases. While other IRS operations capture this type of information to evaluate
and manage the use of staff time, OPR management believes capturing information related to the
use of OPR staff time is not productive. However, we believe that, given the scope and
importance of the OPR’s responsibilities, the inattention to the use of its resources is ill-advised.
Furthermore, the lack of information needed for program monitoring reduces accountability.
Problems obtaining information related to the OPR’s use of resources limited the scope of our
review. For example, at the beginning of our audit, OPR management asked that we consider the
fact that they are giving higher priority and devoting more resources to tax practitioners who
promote tax shelters. However, during our audit, when we asked for information about the
resources devoted to these types of cases, OPR management officials advised us they could not
provide us this information. OPR management stated they do not track the use of staff time and
did not know what time was needed to work the tax shelter-related cases. As such, we were able
to obtain only general information about the OPR inventory and method of prioritizing the cases.
According to the IRS functions responsible for tax shelter cases, approximately 80 cases



23
  The OPR case management system is called the Director of Practice Case Tracking System and is used to record
and monitor enforcement activity.
                                                                                                      Page 13
                        The Office of Professional Responsibility Can Do More to
                         Effectively Identify and Act Against Incompetent and
                                     Disreputable Tax Practitioners



involving licensed tax practitioners were referred to the OPR in 2005.24 The OPR informed us it
has approximately 36 tax shelter cases in development. OPR management advised us that their
decisions on which cases to assign to OPR staff depend on whether the OPR can take action
based on Treasury Department Circular No. 230 guidelines and whether the case will serve as a
significant deterrent to the licensed tax practitioner community.

Guidance is not sufficient to ensure referrals are consistently processed and
requirements are followed
When an IRS operating division, taxpayer, or practitioner sends a referral to the OPR, the OPR
sends an acknowledgement that the referral has been received. However, the OPR does not have
written procedures for how it controls and reviews referrals. OPR staff advised us that, because
the program was small with minimal staff turnover, the process was verbally communicated
among staff members. A draft desk guide for screening, controlling, and reviewing referrals was
developed but never formalized or implemented.
We contacted several IRS operating divisions to evaluate their procedures and processes to
ensure appropriate cases are referred to the OPR. Although the IRS operating divisions had
procedures to send referrals to the OPR, they generally do not maintain a record or list of
referrals sent to the OPR. The only record of referral is kept in each individual case file
maintained by the IRS operating division. The TIGTA Office of Investigations also sends
referrals to the OPR and does maintain a list of those referrals. Based on the information
recorded by the TIGTA Office of Investigations, it does not appear the OPR has an adequate
process for controlling referrals. We checked the case management system and the OPR’s other
(manual) tracking system to determine if the OPR had received and recorded the referrals.25 Of
the 123 TIGTA referrals sent to the OPR since FY 2002, 31 referrals (25 percent) were not
recorded on either the case management or manual tracking systems.
We contacted several State authorities that send lists of State actions, and they advised us that
they do not receive acknowledgement letters from the OPR. According to the OPR, when
referrals from State authorities are received, an OPR employee will review each State action to
ensure the person can be uniquely identified and is active on the CAF. If so, the OPR will record
the case on the case management system and typically take action to expedite a suspension of the
tax practitioner. All other referrals are not recorded and are stored in a paper file.
The process of evaluating whether referrals were appropriately received, recorded, and processed
was complicated by the fact that the OPR destroyed some referrals in October 2004. OPR
officials did not notify the Office of Audit about the destruction of its records. The Office of


24
   The IRS Large and Mid-Size Business Division Office of Tax Shelter Analysis and the SB/SE Division Lead
Development Center.
25
   In the past (prior to FY 2005), the OPR used a manual Mail Tracking System to record the referrals received.
Those referrals that were not within the OPR’s jurisdiction were forwarded to the SB/SE Division for consideration.
                                                                                                          Page 14
                     The Office of Professional Responsibility Can Do More to
                      Effectively Identify and Act Against Incompetent and
                                  Disreputable Tax Practitioners



Audit was made aware of this matter through the TIGTA Office of Investigations, which was
acting on an allegation from an OPR employee. The employee alleged that the OPR had acted
improperly when it destroyed the records. OPR executives expressed the belief that reporting the
allegation in this manner constituted sufficient notice to the Office of Audit. When asked why
they did not communicate directly with the Office of Audit that the OPR had destroyed records
pertinent to this audit, OPR executives expressed the view “it was not on our radar screen.”
OPR officials advised us the OPR was at that time moving its offices and storage to a new
location. Rather than move these records, an OPR official verbally approved their destruction.
Although the IRS has written procedures for records retention and destruction of records, these
procedures were not followed by the OPR. There was no log of what records were destroyed, no
log of when and how the records were destroyed, and no official written authorization. OPR
officials advised us that only referrals received before 2004 were destroyed, and these were only
referrals that they would not develop into cases because the individuals either were not within
the jurisdiction of the OPR or the information in the referrals was insufficient to warrant action
by the OPR. OPR officials acknowledged that they were required to retain these files for
10 years. However, they believe this is too long a retention period for these types of records;
therefore, they intend to seek approval to reduce the retention requirement for these types of
records from 10 years to 1 year.
Written procedures to ensure consistent processing and adherence to requirements need to be
developed and followed. The inconsistent manner in which the OPR handles referrals and the
lack of written procedures increase the risk that the OPR is not operating effectively and is not
identifying tax practitioners who are not in compliance with Department of the Treasury
regulations.

Information is not properly recorded on the case management system
According to OPR officials, prior to January 10, 2005, certain types of case referrals were not
tracked on the case management system. Referrals that were not tracked included those
involving nonlicensed practitioners, individuals not listed on the CAF as practicing before the
IRS, referrals that did not have sufficient information, and those for matters that were not within
the scope of the OPR’s authority.
OPR officials stated that, since January 10, 2005, they are recording all referrals, including those
that are not within their jurisdiction or that lack sufficient information. Nonetheless, we found
that many of these types of referrals are not being recorded. We reviewed a random sample of
73 of these types of referrals received as of January 10, 2005, which was the date OPR officials
indicated they began recording all such referrals; however, only 1 of 73 referrals was recorded on
the OPR case management system.
There were also problems with the accuracy of information recorded on the OPR case
management system. For example, as of June 15, 2005, the system indicated there were 64 open
cases that had not yet been assigned to an OPR employee. However, of these 64 cases, 19 were
                                                                                            Page 15
                       The Office of Professional Responsibility Can Do More to
                        Effectively Identify and Act Against Incompetent and
                                    Disreputable Tax Practitioners



input errors (according to the OPR, these were not open cases awaiting assignment); 6 cases
were duplicate records on the system; 2 cases had been closed but not updated on the system;
1 case had the wrong name; and 7 cases did not have case files or sufficient information on the
system with which to determine the current assignment, status, or conclusion. We also reviewed
the entire case inventories of three OPR employees to determine if their cases were accounted for
and accurately reflected on the OPR case management system. One of these employees had
10 cases that had been closed or reassigned but had not been updated on the system. In addition,
we found 47 cases, which had previously been assigned to employees who had since left the
OPR, had not been reassigned as of June 15, 2005.26
Furthermore, source documents were not retained for some cases recorded on the OPR case
management system, and some cases with source documents were not recorded on the system.
In a random sample of 105 records on the system, there were 15 (14 percent) without supporting
documents on file. In addition, in a random sample of 69 closed case files in the OPR office,
there were 4 cases (5.8 percent) without records on the system.27
The accuracy and consistency of the information on the OPR case management system is
important, not only to ensure cases are properly controlled and processed but also because it is
the system that can be used as a tool to identify trends in the volume of cases received and
worked as well as the average number of days needed to complete casework.
The OPR is replacing the current case management system with a new computer system. It
expects the new system to interact with other IRS computer systems and provide improved case
management information. However, this may not correct some of the problems we identified
because these problems were not entirely caused by the system used but rather by record keeping
policies and practices. Because of the varied sources and forms of referrals, it may not be
feasible to record all these referrals as potential cases on the OPR case management system. For
example, other government entities, such as State licensing authorities, may send lists of
potential cases, but many of these cases may not be appropriate for action by the OPR. It would
not be practical or advisable to record all as separate cases on the system until the OPR has
performed preliminary screening to determine whether the names provided were individuals who
practice before the IRS and whether the nature of the information appeared to warrant
disciplinary action by the OPR.
Nonetheless, it would be advisable for the OPR to monitor the source, quantity, quality,
frequency, and outcome of referrals to identify potential areas for emphasis or improvement with
its outreach efforts and enable OPR officials to work with the sources of information to improve
the reliability and relevance of the information provided. Improvements in these areas would


26
  One employee left the OPR in April 2005 and the other in May 2005.
27
  These cases could have been closed any time in the past 10 years. We selected a random case and then selected
every 50th case until all cabinets had been sampled. Using this method, we estimate there are approximately
3,450 closed cases (69 * 50 = 3,450) in the OPR office.
                                                                                                        Page 16
                    The Office of Professional Responsibility Can Do More to
                     Effectively Identify and Act Against Incompetent and
                                 Disreputable Tax Practitioners



allow the OPR to more efficiently and effectively use its resources by reducing the time needed
to screen referrals. As such, the OPR’s procedures need to better define what cases will be
recorded on the case management system and how the source, nature, and outcome of all
referrals will be monitored.

Recommendations
The Director, OPR, should:
Recommendation 4: Implement the recommendations from our prior report. This should
include employing the OPR case management system to provide data on the use of program
resources and performing an annual workload and staffing analysis to help prioritize and allocate
resources.
       Management’s Response: Management disagreed with this recommendation
       because they do not agree annual workload and staffing analysis is productive given the
       size and maturity of their organization. In addition, their new case management
       information system does not include this capability, and the OPR believes changes would
       not yield benefits commensurate with the substantial software modifications and ongoing
       collection and analysis of data. Resource allocation issues will be addressed through the
       normal budget development process and through regular business performance reviews.
       Office of Audit Comment: We are concerned with management’s decision not to
       implement recommendations from the prior TIGTA report to employ the OPR case
       management system to provide data on the use of program resources and to perform an
       annual workload and staffing analysis to help prioritize and allocate resources. These
       recommendations were previously agreed to but were not implemented by the Director of
       Practice or the OPR. OPR management did not include in their response any information
       to provide support for their statement that the size and maturity of the organization make
       it unproductive to perform annual workload and staffing analysis. We believe the
       problems we identified during this audit are a strong indication that such analysis is
       needed to effectively manage the program. For example, OPR management should be in
       a position to explain what resources are devoted to a major emphasis area such as tax
       shelter cases.
Recommendation 5: Evaluate the OPR record retention requirements and obtain approval for
any needed changes to those requirements.
       Management’s Response: Management agreed with the recommendation and will
       evaluate their record retention requirements and obtain approval for any needed changes
       to those requirements.




                                                                                         Page 17
                   The Office of Professional Responsibility Can Do More to
                    Effectively Identify and Act Against Incompetent and
                                Disreputable Tax Practitioners



Recommendation 6: Develop procedures to better define which cases will be recorded on the
OPR case management system and how the source, nature, and outcome of referrals will be
monitored to help target outreach efforts.
       Management’s Response: Management agreed with the recommendation. The
       implementation of their new case management system includes the documentation of
       procedures for recording correspondence.
Recommendation 7: Establish controls and analytical procedures that will increase the
reliability of the OPR case management system by periodically verifying the inventory.
       Management’s Response: Management agreed with the recommendation. The
       implementation of their new case management system includes quality control
       procedures to ensure data reliability.




                                                                                     Page 18
                        The Office of Professional Responsibility Can Do More to
                         Effectively Identify and Act Against Incompetent and
                                     Disreputable Tax Practitioners



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) has an effective process to identify and discipline tax practitioners when appropriate and
whether its records are adequate to protect against improper representation. To accomplish this
objective, we:
I.      Interviewed Office of Professional Responsibility (OPR) management and employees
        and reviewed Department of the Treasury regulations (Treasury Department
        Circular No. 2301) to evaluate the procedures and guidance for the OPR regarding the
        identification, referral, discipline, and monitoring of tax practitioners/preparers.
II.     Determined the OPR process to control and work referrals, apply disciplinary actions,
        and monitor abusive tax practitioners.
        A. Discussed with OPR management their workload, strategic priorities, and
           methodology for directing resources and interviewed employees within the OPR and
           other IRS operating divisions to determine how tax practitioner complaints are
           referred and processed.
        B. Evaluated whether the OPR retained appropriate case referral documentation and
           discussed any missing documentation with OPR officials.
        C. Obtained a computer backup of the OPR case management system as of
           June 15, 2005, and conducted direct testing of the data to validate their accuracy and
           completeness.
             1. Using a 90 percent confidence interval, an 8 percent expected error rate, and a
                +/-5 percent precision rate, selected a random sample of 73 of 1,900 referrals that
                were received and stored in the OPR filing cabinets and either were not within the
                OPR’s jurisdiction or did not contain sufficient information to warrant OPR
                action. We compared these 73 source document referrals to the OPR case
                management system to determine whether these cases were adequately
                controlled.2


1
  Regulations Governing the Practice of Attorneys, Certified Public Accountants, Enrolled Agents, Enrolled
Actuaries, and Appraisers before the Internal Revenue Service. Title 31 Code of Federal Regulations, Subtitle A,
Part 10 (June 20, 2005, revision).
2
  The OPR case management system is called the Director of Practice Case Tracking System and is used to record
and monitor enforcement activity.
                                                                                                         Page 19
                        The Office of Professional Responsibility Can Do More to
                         Effectively Identify and Act Against Incompetent and
                                     Disreputable Tax Practitioners



             2. Using a 90 percent confidence interval, a 10 percent expected error rate, and a
                +/-5 percent precision rate, selected a random sample of 105 of 2,101 practitioner
                referral cases recorded as closed on the OPR case management system between
                Fiscal Years (FY) 2001-2005 to determine whether case files were retained and
                whether the case information was properly recorded.
             3. Using a 90 percent confidence interval, a 6 percent expected error rate, and a
                +/-5 percent precision rate, selected a random sample of 69 of 3,450 closed
                practitioner referrals received and stored in the OPR filing cabinets and compared
                them to the OPR case management system to determine whether the case
                information was properly recorded.
             4. Selected the complete open case inventories of three OPR employees from the
                OPR case management system and verified whether the cases were accurately
                accounted for on the system.
III.     Determined whether attorneys, certified public accountants (CPA), and enrolled agents
         with criminal tax convictions were identified and effectively processed by the OPR.
         A. Identified licensed practitioners with criminal tax convictions between Calendar
            Years 2002-2004 from approximately 1,200 press releases and case summaries from
            the Department of Justice Tax Division, the United States Attorney’s Office, and the
            IRS Criminal Investigation Division and the Treasury Inspector General for Tax
            Administration Office of Investigations.
         B. Identified and discussed with OPR management those tax practitioners who were
            convicted of tax crimes but who were not identified by the OPR and were listed on
            the Centralized Authorization File (CAF)3 without restrictions.
IV.      Determined whether attorneys and CPAs with State sanctions and enrolled agents with
         IRS sanctions were identified and effectively processed by the OPR.
         A. Identified licensed practitioners with sanctions imposed between Calendar
            Years 2002-2004. Due to the limited availability and accessibility of State licensing
            web sites, we judgmentally selected 5 of the 50 United States (California, Florida,
            New York, Pennsylvania, and Texas) and reviewed 5 web sites for State boards of
            accountancy and 5 web sites for State bar associations.
         B. Identified and discussed with OPR management those tax practitioners with State
            sanctions but who were not identified by the OPR and were listed on the CAF without
            restrictions.


3
 Taxpayers can authorize individuals to represent them on tax returns or other tax-related issues by submitting a
Power of Attorney and Declaration of Representative (Form 2848) to the IRS that is recorded on the CAF.
                                                                                                           Page 20
                 The Office of Professional Responsibility Can Do More to
                  Effectively Identify and Act Against Incompetent and
                              Disreputable Tax Practitioners



V.   Determined whether licensed tax practitioners listed on the IRS CAF were delinquent
     with their personal tax accounts.
     A. Obtained from the IRS Detroit, Michigan, CAF Programming Group an extract of the
        CAF and conducted direct testing of the data to validate for accuracy and
        completeness. We analyzed the data and identified approximately 1.4 million
        representatives who were recorded on the CAF as of February 2005 with an estimated
        407,000 of these listed as licensed tax practitioners.
     B. Based on the advice of our statistician, used an attribute sampling methodology with a
        95 percent confidence interval, an expected error rate of 10 percent, and a precision
        rate of +/-5 percent to select a stratified, random sample of 750 licensed tax
        practitioners. The first stratum was composed of attorneys, and the second and third
        strata were composed of CPAs and enrolled agents, respectively. The final stratum
        was composed of representatives with multiple designations, with at least one license
        designator.
     C. Identified the number of noncompliant licensed practitioners and discussed with OPR
        management those licensed practitioners with a delinquent tax account and estimated
        the number who are currently noncompliant and still eligible to represent taxpayers
        before the IRS.




                                                                                      Page 21
                   The Office of Professional Responsibility Can Do More to
                    Effectively Identify and Act Against Incompetent and
                                Disreputable Tax Practitioners



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Carl L. Aley, Acting Director
Aaron R. Foote, Audit Manager
Mark A. Judson, Lead Auditor
Daniel M. Quinn, Senior Auditor
Angela Garner, Auditor
Mary F. Herberger, Auditor
Carolyn D. Miller, Auditor




                                                                                      Page 22
                  The Office of Professional Responsibility Can Do More to
                   Effectively Identify and Act Against Incompetent and
                               Disreputable Tax Practitioners



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Chief Information Officer OS:CIO
Director, Customer Account Services Consolidation SE:W
Director, Customer Account Services SE:W:CAS
Associate Chief Information Officer, Business Systems Development OS:CIO:I:B
Director, Compliance Services OS:CIO:I:B:CS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Deputy Commissioner for Services and Enforcement SE
       Director, Office of Professional Responsibility SE:OPR




                                                                                Page 23
                        The Office of Professional Responsibility Can Do More to
                         Effectively Identify and Act Against Incompetent and
                                     Disreputable Tax Practitioners



                                                                                                 Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:

•   Taxpayer Burden – Actual; 1,436 taxpayers are being represented by 55 licensed tax
    practitioners who have been convicted or enjoined for a tax-related crime (see page 5).

Methodology Used to Measure the Reported Benefit:

To evaluate whether the process followed by the Office of Professional Responsibility (OPR)
identifies most of the practitioner convictions, we reviewed approximately 1,200 Department of
Justice Tax Division, Internal Revenue Service (IRS) Criminal Investigation Division, and
Treasury Inspector General for Tax Administration Office of Investigations press releases and/or
case summaries for tax-related crimes during Calendar Years 2002-2004. From this review, we
identified 223 representatives who were convicted, or served with an injunction, who were also
listed on the Centralized Authorization File (CAF).1 For 24 representatives, the IRS had taken
the necessary actions to record on the CAF that these representatives may not represent taxpayers
before the IRS. However, the remaining 199 (89 percent) representatives were still listed on the
CAF as eligible to practice before the IRS. Of these 199 representatives, 55 are within the
jurisdiction of the OPR because they were attorneys, certified public accountants (CPA), or
enrolled agents and represent 1,436 taxpayers.

Type and Value of Outcome Measure:

•   Taxpayer Burden – Actual; 5,218 taxpayers are being represented by 516 tax practitioners
    who have had their licenses revoked or have been disbarred by a State bar or board of
    accountancy (see page 7).




1
 Taxpayers can authorize individuals to represent them on tax returns or other tax-related issues by submitting a
Power of Attorney and Declaration of Representative (Form 2848) to the IRS that is recorded on the CAF.
                                                                                                           Page 24
                        The Office of Professional Responsibility Can Do More to
                         Effectively Identify and Act Against Incompetent and
                                     Disreputable Tax Practitioners



Methodology Used to Measure the Reported Benefit:

To evaluate whether State disciplinary actions are acted on by the OPR, we judgmentally
selected five States to review the disciplinary actions by the bar associations and State boards of
accountancy.2 Using the States’ web site listings of actions, we identified approximately
2,100 actions that occurred during Calendar Years 2002-2004. These actions included
revocations, disbarments, resignations, and surrendered licenses.3 Of these approximately
2,100 attorneys and CPAs, 516 were still listed on the CAF as eligible to practice before the IRS.

Type and Value of Outcome Measure:

•   Taxpayer Burden – Potential; 22,500 licensed practitioners whose tax accounts are in a
    Taxpayer Delinquency Investigation or a Taxpayer Delinquent Account status with balances
    due4 (see page 9).
•   Taxpayer Burden – Actual; 470 taxpayers are being represented by 34 licensed practitioners
    whose tax accounts are in a Taxpayer Delinquency Investigation or a Taxpayer Delinquent
    Account status with balances due (see page 9).

Methodology Used to Measure the Reported Benefit:

We obtained a computer extract of approximately 1.4 million taxpayer representatives from the
CAF database.5 We selected a statistical sample of 750 licensed practitioners based on
stratification among the designation levels for the licensed representatives. The strata included
attorneys, CPAs, enrolled agents, and representatives with more that one designation (with at
least one of the designations indicating they are an attorney, a CPA, or an enrolled agent). In this
sample, we identified 34 licensed tax practitioners whose tax accounts indicate a Taxpayer
Delinquency Investigation or Taxpayer Delinquent Account status. Using a 95 percent
confidence interval, a 5.53 percent error rate, and a +/-1.94 percent precision rate and applying
the error rates for each stratum in our sample, we estimated that 22,500 licensed practitioners are
not compliant with their own tax obligations but are still eligible to practice before the IRS.




2
  We selected five of the most populated States: California, Florida, New York, Pennsylvania, and Texas.
3
  Suspensions were not included in our review because the OPR will take disciplinary actions only for State
suspensions longer than 6 months; some State information did not provide time durations for suspensions.
4
  For this review, we considered a representative to be not in compliance with his or her tax obligations if the IRS
had initiated enforcement action by issuing a Taxpayer Delinquency Account for a tax period with a balance due or
a Taxpayer Delinquency Investigation for a tax period with a missing tax return or at least two tax periods missing
tax returns that have expired extensions to file.
5
  Approximately 407,000 of the 1.4 million taxpayer representatives were listed as licensed tax practitioners.
                                                                                                            Page 25
      The Office of Professional Responsibility Can Do More to
       Effectively Identify and Act Against Incompetent and
                   Disreputable Tax Practitioners



                                                      Appendix V

Management’s Response to the Draft Report




                                                            Page 26
The Office of Professional Responsibility Can Do More to
 Effectively Identify and Act Against Incompetent and
             Disreputable Tax Practitioners




                                                      Page 27
The Office of Professional Responsibility Can Do More to
 Effectively Identify and Act Against Incompetent and
             Disreputable Tax Practitioners




                                                      Page 28
The Office of Professional Responsibility Can Do More to
 Effectively Identify and Act Against Incompetent and
             Disreputable Tax Practitioners




                                                      Page 29
The Office of Professional Responsibility Can Do More to
 Effectively Identify and Act Against Incompetent and
             Disreputable Tax Practitioners




                                                      Page 30
The Office of Professional Responsibility Can Do More to
 Effectively Identify and Act Against Incompetent and
             Disreputable Tax Practitioners




                                                      Page 31
                        The Office of Professional Responsibility Can Do More to
                         Effectively Identify and Act Against Incompetent and
                                     Disreputable Tax Practitioners



                                                                                               Appendix VI

          Office of Audit Comments on Management’s
                            Response

In response to our draft report, the Director, Office of Professional Responsibility (OPR),
included some general comments and assertions we believe warrant additional comment. We
have included portions of management’s response and our related comments below.
Management’s Response: Your draft report emphasizes two aspects of OPR enforcement—
expedited proceedings based on criminal convictions and State licensing authority actions, and
practitioner tax non-compliance. While we agree that we can make improvements in both areas,
we disagree with the emphasis placed on them in your draft report. A key part of the IRS
Strategic Plan emphasis on oversight of tax practitioners is identifying improper tax practitioner
behaviors that have the greatest impact on public confidence in tax administration. These cases
tend to be complex and time consuming, and results cannot be measured by simply counting the
number of actions taken.
        Office of Audit Comment: One of the most significant areas of concern in this report
        is OPR management’s inability to provide the data needed to evaluate the overall scope
        of its operations. When asked, OPR management was unable to provide information to
        demonstrate (1) what resources were committed to priority areas or (2) the effect any
        shift in its use of resources had had on the overall enforcement program.
Management’s Response: We are concerned that the report does not appear to focus on the
OPR as it exists today. The period covered by the audit includes FY [Fiscal Year] 2002 through
FY 2004, and some reported data includes FY 2005 activity. However, the organization that
existed in 2002 bears little resemblance to the OPR of today. We began implementing a
complete reorganization and revitalization of Circular 2301 programs in the second quarter of
FY 2003, and significant changes were still being made throughout FY 2005. Despite our
requests, the audit findings do not indicate when the events that form the basis for the findings
occurred. Thus, it is not possible for us to determine whether the conditions cited in the report
reflect the former Director of Practice organization and operating procedures, the early stages
of transformation to the OPR, or the more recent actions by this office. Whether the cited


1
  Treasury Department Circular No. 230, Regulations Governing the Practice of Attorneys, Certified Public
Accountants, Enrolled Agents, Enrolled Actuaries, and Appraisers before the Internal Revenue Service, contains the
standards of conduct and professionalism for licensed tax practitioners and authorizes the Department of the
Treasury to institute disciplinary proceedings against tax practitioners whose conduct violates these regulations.
Title 31 Code of Federal Regulations, Subtitle A, Part 10 (June 20, 2005, revision).
                                                                                                         Page 32
                    The Office of Professional Responsibility Can Do More to
                     Effectively Identify and Act Against Incompetent and
                                 Disreputable Tax Practitioners



deficiency relates to identification of potentially actionable misconduct, file maintenance or
database accuracy, we cannot determine from the findings whether the audit has identified a
problem that we have already addressed, or one that still needs our attention.
       Office of Audit Comment: The OPR was established in January of 2003 and has the
       same responsibility for oversight related to Circular 230 as the former Director of
       Practice. Much of our scope period was after the OPR was established. Although
       staffing increased and personnel changes were made, we found the same conditions
       before and after the OPR was established. Preliminary results of our findings for this
       scope period were presented and discussed with the OPR in February 2005. After
       discovering files had been destroyed by the OPR, we expanded our audit testing to
       include a computer system and physical inventory validation as of June 15, 2005. This
       identified additional conditions previously reported to the Director of Practice that
       continue to exist in the OPR. The problems have not been adequately addressed and still
       need the OPR’s attention.
Management’s Response: The finding that “only 1 of 73 referrals was recorded on the
OPR’s case management system” is described as a deficiency, when in fact it was an almost
perfect application of our policy not to record this information unless further research justified
doing so. If the one case that was recorded involved a person within our jurisdiction, there was
no error in our performance on these 73 items.
       Office of Audit Comment: We are not certain what policy OPR management is
       referring to when they state that not recording this information is a perfect application of
       their policy. OPR management was unable to provide us with any such policy or
       procedures. They had draft procedures, which were never implemented, that indicated
       this information should have been recorded. This further supports our conclusion and
       recommendation that the OPR needs to develop procedures to better define which cases
       will be recorded on the OPR case management system and how the source, nature, and
       outcome of referrals will be monitored to help target outreach efforts.
Management’s Response: There is no explanation for the inclusion of injunctions with
convictions, nor is there any recognition that an injunction case is considered using different
procedures from those applicable to a conviction. Similarly, the draft report refers to State
licensing authority actions without distinguishing between those taken “ for cause” and those
taken for failure to pay a fee (such as a renewal fee). The former may be processed using
expedited procedures, while the latter may not.
       Office of Audit Comment: We provided information on cases that the OPR should
       have identified for possible action but had not. Whether the cases were processed using
       expedited procedures was not relevant because these cases had not been identified by the
       OPR for processing at all.


                                                                                            Page 33
                    The Office of Professional Responsibility Can Do More to
                     Effectively Identify and Act Against Incompetent and
                                 Disreputable Tax Practitioners



Management’s Response: The report refers to TIGTA [Treasury Inspector General for Tax
Administration] Office of Investigations referrals, and states that 25% of the referrals since
FY 2002 could not be located. The report does not say whether the 31 referrals that could not be
found were reports of investigation, referrals of uninvestigated allegations for which a reply was
expected, or referrals “for information” with no reply expected. It also does not indicate when
the referrals were made. Our processes changed from FY 2002 through FY 2004, as did the staff
committed to keeping our information system accurate.
       Office of Audit Comment: The TIGTA Office of Investigations expected IRS replies
       for all referrals we reported. These were not referrals “for information.” Furthermore,
       the time period of these missing referrals indicate that the OPR’s changes in processes
       and staff did not improve the problem. Most of these missing referrals were from
       FYs 2004 and 2005.
                         Fiscal Year                 Missing Referrals
                         2003                               5
                         2004                              14
                         2005                              12
                         TOTAL                             31
       This is only one of several indications that the OPR case management system was not
       reliable. Our concern is that, when it was possible to reconcile cases that were referred to
       the OPR, the reconciliation indicated a significant portion of the cases referred were
       missing and had not been recorded. As such, the scope of this problem may be much
       larger because most IRS functions and many other law enforcement agencies send
       referrals. Because most of these sources could not provide a list of referrals sent to the
       OPR, we were unable to identify the full extent of missing referrals.
Management’s Response: The draft report cites as impairment to the scope of the audit
[of] an OPR decision to destroy certain case referral records. These were records of referrals
that [the] OPR or the Director of Practice had reviewed and determined were not actionable—
either for a lack of jurisdiction, or because the conduct described was insufficient to justify
further inquiry. The Director of Practice policy was to hold these files for ten years, on the
theory that they may become relevant if additional information was received or developed
concerning the practitioner. The OPR changed this policy because the theory behind it had not
proven valid (no cases could be cited where the old records had been combined with new
information to form the basis of a disciplinary action). We had also been questioned by
practitioners about the practice of retaining allegations to which the practitioner had not been
given an opportunity to respond. Our decision to destroy records more than one year old was
implemented before amending the published records retention rule, which was based on the
former policy of the Director of Practice. This was an administrative oversight—the published
record retention rule should reflect the program policy decision. Had we taken the
                                                                                           Page 34
                     The Office of Professional Responsibility Can Do More to
                      Effectively Identify and Act Against Incompetent and
                                  Disreputable Tax Practitioners



administrative step prior to executing the decision to destroy the records, the result would have
been the same—the obsolete records would not have been retained, and would not have been
available for the audit team to review. The policy change on retention of these obsolete records
was unrelated to the audit, and we question the prominence the “impairment” has been given.
       Office of Audit Comment: OPR management was unable to provide any evidence of
       a policy change related to the records retention requirement. Moreover, the OPR has still
       not obtained approval to change the requirement—the established retention requirement
       to store these files is still 10 years—despite the fact that more than 1 year has elapsed
       since these records were destroyed. Moreover, many of the records destroyed were from
       the period 2002 to 2004, which was the scope period of our audit, and we should have
       had access to these records to evaluate whether the OPR properly considered and acted
       on the information in the referrals. When the OPR destroyed the files, it did not log what
       records were destroyed, did not log when and how the records were destroyed, and did
       not obtain official written authorization. The OPR did not inform us that some of these
       records had been destroyed the same month, October 2004, we started our fieldwork.
       Since the OPR decision to destroy records was in violation of established written policy;
       was not properly authorized, documented, or voluntarily disclosed to the TIGTA; and
       may have been important to our audit results, we believe the audit scope impairment is
       applicable and the prominence is justified.
Management’s Response: The OPR cannot evaluate the statements regarding outcome
measures that appear in Appendix IV of the draft report. As is noted above, the information on
convictions also includes injunctions, and the information on State licensing authority actions
does not distinguish between actions for cause and actions for failure to pay a licensing fee. The
procedures followed vary based on the nature of the action taken by the courts or the State
licensing authorities, so it is not clear that all of the cases included in the sample would result in
a suspension of practice privileges. We also caution against projecting the number of taxpayers
represented based on the data presented. The Centralized Authorization File data presented
does not indicate how many representations occurred after the event which the audit team
assumes would trigger a suspension of practice privileges. Even if all of the representatives
cited in the samples are assumed to be subject to suspension, representations that occurred prior
to the triggering event should not be included in the statement of benefits.
       Office of Audit Comment: Notwithstanding the fact that OPR management cautioned
       us against projecting the number of taxpayers represented based on the data presented,
       the number of taxpayers represented was not a projection. We obtained the actual
       number of taxpayers who had a convicted, an enjoined, or a State-sanctioned tax
       practitioner listed as their representative on the Centralized Authorization File. At the
       time of our review, and possibly still today, these tax practitioners were able to act as a
       power of attorney for these taxpayers at IRS hearings, prepare and file documents,
       receive refunds and other correspondences, and communicate with the IRS regarding the

                                                                                              Page 35
             The Office of Professional Responsibility Can Do More to
              Effectively Identify and Act Against Incompetent and
                          Disreputable Tax Practitioners



taxpayer’s rights and liabilities. The only projection we made related to tax practitioners
who were not compliant with their own tax obligations; we did not project the number of
taxpayers being represented. This was based on a statistically valid sampling
methodology, and the OPR did not cite any disagreement with the estimate of 22,500
noncompliant tax practitioners.




                                                                                    Page 36
